<html>
<title> - THE BALLISTIC MISSILE THREAT TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 105-847]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-847


 
                      THE BALLISTIC MISSILE THREAT
                          TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 6, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE                    
53-879                     WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Rumsfeld, Hon. Donald H., Former Secretary of Defense, 
  Representing the Ballistic Missile Threat Commission...........     3

                                 (iii)




           THE BALLISTIC MISSILE THREAT TO THE UNITED STATES

                              ----------                              


                        TUESDAY, OCTOBER 6, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Jesse Helms, 
Chairman of the Committee, presiding.

    Present: Senators Helms, Coverdell, Hagel, and Grams.

    The Chairman. The meeting will come to order. These are the 
closing throes of a session, and both policy committees are 
meeting today. I am trying to ascertain whether Joe Biden is 
out of his yet, and I apologize for my tardiness. You were here 
ahead of me.

    Senator Coverdell. That is unusual, is it not.

    The Chairman. We will wait just a moment. I will use the 
time for my statement and Joe can make his when he gets here.

    Today's hearing is focused on the remarkable, unanimous 
conclusions reached by the Rumsfeld Commission regarding the 
threat of ballistic missile attacks on the United States and 
the capacity of the U.S. intelligence community to keep abreast 
of those developments.

    This afternoon's distinguished witness is the Honorable 
Donald H. Rumsfeld, former Secretary of Defense under President 
Ford and Chairman of the distinguished commission that was 
established pursuant to the National Defense Authorization Act 
for fiscal year 1997.

    Mr. Secretary, we appreciate your coming. It is always good 
to see you. It brings back a lot of good memories that I am not 
experiencing these days.

    At the outset, I will observe that there is no greater 
threat to America's national security than the proliferation of 
ballistic missiles tipped with nuclear, chemical or biological 
warheads.

    We had a closed meeting yesterday on this very subject. I 
was alarmed about some of the things that I heard.

    At least 10 countries have operational ballistic missiles 
with ranges greater than 300 miles. That is today.

    That number will grow by half again within the next 10 
years, and many of these nations, for example, Iran, Iraq, 
Libya, Syria and North Korea, are clearly hostile to the United 
States.

    Given North Korea's recent flight test of a three-stage 
intercontinental ballistic missile, it is an absolute 
irrefutable fact that a hostile tyrant will soon possess 
missiles capable of exterminating entire American cities.

    Now, I have watched in disbelief as the Clinton 
Administration and the U.S. intelligence community have 
willfully and repeatedly ignored the handwriting on the wall.

    Like many, I was appalled by the National Intelligence 
Estimate on Missile Threats, NIE 95-19, which simply made too 
many intellectual errors, all of which underestimated the 
looming threat, to not have been politically skewed.

    NIE 95-19, as Senators may recall, made a number of 
ludicrous assumptions, such as that concentrating on indigenous 
development of ICBMs adequately addresses the foreign missile 
threat to the United States; that foreign assistance will not 
enable countries to significantly accelerate ICBM development, 
and that the Missile Technology Control Regime will continue to 
significantly limit international transfers of missiles, 
components and related technology, that no country with ICBMs 
will sell them, that no country other than the declared nuclear 
powers are capable of developing ICBMs from a space launch 
vehicle program will do so, nor will, they decided, will space 
launch vehicle programs enable third countries to significantly 
accelerate ICBM development.

    They also decided that a flight test program of 5 years is 
essential to the development of an ICBM, that development of 
short and medium range missiles will not in turn speed ICBM 
development; that no country will pursue a biological warhead 
as opposed to a nuclear warhead, for an ICBM; and that the 
possibility of unauthorized or accidental launch from existing 
nuclear aarsenals has not changed significantly over the last 
10 years.

    I continue to shake my head in puzzlement and in 
astonishment that for the last 3 years, our national security 
policy has been driven by these assumptions, not one of those 
claims stands up to any scrutiny at all.

    We established your Commission, Secretary Rumsfeld, due to 
our frustration over the intelligence community's refusal to 
give us a straight answer, at least a straight answer on the 
record, and true to all of our expectations, your bipartisan 
commission has served as a breath of fresh air, for which I for 
one am most grateful.

    In the wake of your report, the intelligence community has 
begun a long awaited, desperately needed revision of its 
estimates relating to the emerging ballistic missile threat.

    Certainly, much remains to be done and the changes in the 
community's estimation process will leave much to be desired.

    For example, rather than eating humble pie, the latest 
National Intelligence Estimate vainly clings to a variant of 
the formulation first used in NIE 95-19.

    The unclassified key judgment of the 1998 NIE is, and I 
quote, ``beyond the North Korean TD-2, we judge it unlikely, 
despite the extensive transfer of theater missile and 
technology, that other countries, except Russia and China, as 
mentioned, will develop, produce and deploy an ICBM capable of 
reaching any point of the United States over the next decade.''

    It is beyond me why the intelligence community cannot 
simply say within the next decade, North Korea is likely to 
join Russia and China as a country that has ICBMs capable of 
threatening the United States.

    This second statement is equally accurate, but heaven 
forbid that the intelligence community convey a sense of 
urgency regarding the emerging missile threat.

    I am going to close, Mr. Secretary. I think we should all 
be agreed that the missile threat is real and it is 
threatening.

    I look forward to your presentation of the Commission's key 
judgments and a chance to discuss the intelligence community's 
latest NIE with you and the other distinguished members of the 
Commission.

    Let me ascertain for sure whether Senator Biden, our 
distinguished ranking member of our committee, is able to be 
with us. I am informed that Senator Biden has been detained on 
another committee matter, and he suggests that we proceed.

    Mr. Rumsfeld.

STATEMENT OF THE HONORABLE DONALD H. RUMSFELD, FORMER SECRETARY 
     OF DEFENSE, REPRESENTING THE BALLISTIC MISSILE THREAT 
                           COMMISSION

    Mr. Rumsfeld. Thank you very much, Mr. Chairman, members of 
the committee. I am very pleased that Dr. Barry Blechman and 
Dr. Bill Graham are able to be with me today to present the 
unclassified version of our report to your committee.

    Dr. Blechman is the founder of the Henry Stimson Center and 
a former Assistant Director of the Arms Control and Disarmament 
Agency in the Carter Administration.

    Dr. Graham is the former Science Advisor to President 
Reagan and was also Deputy Director of NASA.

    We are hopeful that Dr. Paul Wolfowitz will join us as 
well. Paul is the Dean at the Johns Hopkins School of 
International Affairs, the Nitze School.

    Other members of the Commission were Lee Butler, former 
Commander of the Strategic Air Command. Dr. Richard Garwin of 
IBM, a scientist with a long record of service on Federal 
commissions. Dr. William Schneider Jr., former Undersecretary 
of State for Security Assistance in the Reagan Administration, 
and General Larry Welch, former Chief of Staff for the Air 
Force and currently the CEO of the Institute for Defense 
Analysis.

    Last, the Honorable James Woolsey, former Director of the 
CIA in the Clinton Administration.

    I must say that we could not have had a more knowledgeable, 
experienced and talented group of commissioners than the names 
I just read. They certainly deserve my respect and appreciation 
and they have it in full measure.

    As you know and said, the Commission was established by 
Congress. We delivered our report in July including a brief, 
unclassified executive summary that you all have before you. It 
is some 36 pages. The actual report is 306 pages, I believe, 
plus a couple of hundred pages of classified back-up.

    I would ask, Mr. Chairman, the unclassified Executive 
Summary be placed in the record at this point.

    The Chairman. There is no objection. So ordered.

    A copy of the unclassified Executive Summary of the Commission's 
report will be maintained in the Committee's files. The Executive 
Summary is also available on-line at:


    http://www.house.gov/nsc/testimony/105thcongress/BMThreat.htm

    Mr. Rumsfeld. The members of the Commission were nominated 
by the House Democratic and Republican leadership and the 
Senate Democratic and Republican leadership.

    Our work covered more than 6 months and included some 200 
briefings. As General Welch observed at one point, the facts 
finally overrode all of our biases and opinions that we came 
into our work with and literally drove us to our unanimous 
conclusions.

    As required by the charter, we looked only at the emerging 
and current ballistic missile threat to the United States, not 
to other threats, such as terrorism or cruise missiles. We 
concentrated on the threat to the United States of America as 
opposed to U.S. forces overseas or friends or allies.

    We examined the ballistic missile countries, both as buyers 
and sellers, as well as users of technology, and the state of 
their capabilities, including biological and nuclear weapons.

    We consulted with technical, area, functional and policy 
experts. We commissioned work to look at technical aspects as 
to what is possible in the various approaches in missile 
development, and we examined the availability of nuclear and 
biological weapon capabilities.

    I will summarize briefly our conclusions. First, that China 
and Russia continue to pose threats, although different in 
nature. Each country is on a somewhat uncertain, albeit a 
different path.

    With respect to North Korea and Iran, we concluded that 
each could pose a threat to the United States within 5 years of 
a decision to do so, and that the United States might not know 
for several years whether such a decision had been made.

    We concluded that Iraq could pose a threat to the U.S. 
within 10 years of a decision to do so, and that the U.S. might 
not know for several years when such a decision was made. That 
view was based on the assumption that the UNSCOM sanctions and 
inspections would be in place and effective. It is now 
increasingly likely that they will not be in place or 
effective.

    Therefore, we would place Iraq with North Korea and Iran as 
capable of posing a threat within 5 years of making such a 
decision, and we underline that we might well not know for 
several years if such a decision had been made.

    We concluded unanimously that the emerging capabilities are 
broader, more mature and evolving more rapidly than they had 
been reported, and that the intelligence community's ability to 
provide timely warning is being eroded.

    We concluded that the warning time of deployment of 
ballistic missile threat to the United States is reduced. 
Indeed, under some plausible scenario's, including re-basing or 
transfer of operational missiles, sea and air launch options, 
shortened development programs that might include testing in a 
third country, or some combination of these, we concluded that 
the U.S. might well have little or no warning before 
operational deployment.

    All of these possibilities have happened, so they are 
hardly unlikely.

    One important reason for reduced warning is that the 
emerging powers are secretive about their programs and are 
increasingly sophisticated in deception and denial. They know 
considerably more than we would like them to know about the 
sources and methods of our collection, in no small part through 
espionage. They use that knowledge to good effect in hiding 
their programs.

    We have concluded that there will be surprises. It is a big 
world. It is a complicated world and deception and denial are 
extensive.

    The surprise to me is not that there are and will be 
surprises but that we are surprised that there are surprises. 
In my view, we need to recognize that surprises will occur and 
take the steps and investments to see that our country is 
arranged to deal with the risks that the inevitable surprises 
inevitably will pose.

    The second key factor is the extensive foreign assistance, 
technology transfer and foreign trade in ballistic missile and 
weapons of mass destruction capabilities.

    Foreign trade and foreign assistance are in our view not a 
wild card. They are facts. The contention that there are 
nations with indigenous ballistic missile development programs 
is in our view not correct. We do not know of one such nation 
that in fact has what could be correctly characterized as an 
indigenous ballistic program. There may not have been a truly 
indigenous ballistic missile development program since Robert 
Goddard. The countries of interest are helping each other. They 
are doing it for a variety of reasons, some strategic, some 
financial, but technology transfer is not rare, it is not 
unusual, indeed, it is pervasive.

    The intelligence community has a difficult assignment. 
There are more actors, more programs and more facilities to 
monitor than was the case during the Cold War. Their assets are 
spread somewhat thinly across many priorities.

    Methodological adjustments relative to collecting and 
analyzing evidence is in our view not keeping up with the pace 
of events.

    We approached our assignment not as intelligence analysts, 
but as policymakers with decades of experience in dealing with 
the intelligence community and its products.

    As such, we approached it in a way that was different from 
the normal intelligence analyst's approach. Therefore, it 
should not be surprising that our conclusions diverged from 
earlier community estimates.

    Specifically, Russia and China have emerged as major 
suppliers of technology to a number of countries. There is the 
advent and acceleration of trade among second tier powers to 
the point that development of these capabilities may well have 
become self sustaining.

    For example, today they each have various capabilities that 
others do not. As they trade, whether it is knowledge, systems, 
components or technicians, the result is that they each benefit 
from each other and are able to move forward on development 
paths that are notably different from ours or that of the 
Soviet Union, and they are able to move at a more rapid pace.

    To characterize the programs of target nations as ``high 
risk,'' it seems to me is a misunderstanding of the situation. 
These countries do not need the accuracies the U.S. required. 
They do not have the same concerns about safety the U.S. has, 
nor do they need the high volumes the U.S. acquired.

    As a result, they are capable of using technologies, 
techniques and even equipment that the U.S. would have rejected 
as too primitive as long ago as three decades.

    Whether called ``high risk'' or not, let there be no doubt 
that they are rapidly and successfully developing the 
capabilities necessary to threaten the United States.

    Since January 1998, when we began our assignment, we have 
seen the Pakistani Ghauri missile launch, the Indian nuclear 
tests, the Pakistani nuclear tests, Iran's Shahab 3 test, and 
most recently, the North Korean TD-1 space launch vehicle 
effort, to mention only the unclassified events.

    There has not been a month that has passed where there has 
not been some event or new information that has reinforced the 
reality of the extensive technology transfer that is taking 
place or a new surprise because of the sophistication of these 
countries' deception and denial, and their increasing skill at 
keeping the U.S. from knowing what it is they are doing and 
where they are doing it.

    The recent TD-1 space launch vehicle test is an object 
lesson but it is also a warning. Many were skeptical for 
technical reasons that the TD-1 could fly at all. It had been 
the conventional wisdom that staging and systems integration 
were too complex and difficult for countries such as North 
Korea to accomplish in any near timeframe. Yet, North Korea 
demonstrated staging twice.

    The third stage solid motor and the satellite were both a 
surprise. The U.S. was aware that a launch was going to take 
place but not that the TD-1 would have a third stage, and 
certainly not that it would attempt to put a satellite in low 
earth orbit. While anticipating a flight of a TD-1, the IC did 
not anticipate this type of flight.

    The question is does this bring North Korea to an ICBM 
capability. The intelligence community is estimating that the 
system tested is somewhere between 4,000 and 6,000 kilometers. 
ICBM range is in that neighborhood. That means that a three-
staged TD-1 might be able to reach Alaska and parts of the 
western most Hawaiian Islands. This range, however, was not 
what was expected of a TD-1. Rather, what was expected of their 
follow on missile, the TD-2.

    How much further might a three-staged North Korean TD-1 
fly? That, of course, is a function of the payload type and 
size, the weight of the materials used and the number of 
stages.

    It would not be surprising if the range/payload 
calculations suggest that a three-staged TD-1 has a potential 
greater than that of 5,500 kilometers, the ICBM range. 
Overcoming the failure in the third stage should be manageable 
and re-entry vehicle technology is on the open market.

    Even if calculations indicate that the TD-1 cannot reach 
beyond Alaska and Hawaii with a useful payload, their recent 
launch does suggest that because of their demonstrated 
technical proficiency, the TD-2 will be considerably more 
capable than had been thought.

    In short, the likelihood that a TD-2 will be successfully 
tested has gone up considerably since the August 31 flight. The 
likelihood that a TD-2 flight will exceed 5,000 to 6,000 
kilometers in range with an useful payload has gone up as well. 
The likelihood that we will not know very much in advance of a 
launch what a TD-2 will be capable of continues to be high.

    What I have said about North Korea is important but given 
the reality of technology transfer, what happens in North Korea 
is also important with respect to other countries, for example, 
Iran.

    If North Korea has the capability it has now demonstrated, 
we can be certain they will offer that capability to other 
countries, including Iran. That has been their public posture. 
It has been their private behavior. They are very actively 
marketing ballistic missile technologies.

    In addition, Iran not only has assistance from North Korea 
but it also has assistance from Russia and from China, which 
creates additional options and additional development paths for 
them.

    What does all this mean by way of warning? It powerfully 
reinforces our Commission's conclusions that technology 
transfer is pervasive and that deception and denial work.

    Further, it points out the fact that the longer range 
ballistic missiles are increasingly attractive to a number of 
countries, because the world knows from the Gulf War that 
combating Western armies and navies is not a wise choice.

    This reality makes threats such as terrorism, ballistic 
missiles and cruise missiles more attractive. They are cheaper 
than armies and air forces. They are attainable. Ballistic 
missiles have the advantage of being able to arrive at their 
destination undefended.

    We concluded unanimously that we are in an environment of 
little or no warning. We believe that arguments to the contrary 
are not supported by the facts.

    This led us to our unanimous recommendation that U.S. 
analyses, practices and policies that depend on expectations of 
extended warning of deployment be reviewed, and as appropriate, 
revised to reflect the reality of an environment in which there 
may be little or no warning.

    Specifically, we believe the Department of State should 
review its policies and priorities, including non-proliferation 
activities, the intelligence community should review U.S. 
collection capabilities, given their more complex task, and 
last, that the defense establishment should review both U.S. 
offensive and defensive capabilities and any strategies that 
are based on extended warning.

    In short, we are in a new circumstance and the policies and 
approaches that were appropriate when we could rely on extended 
warning no longer apply.

    Mr. Chairman, I thank you. Dr. Blechman and Dr. Graham and 
I are prepared and available to respond to questions.

    The Chairman. Mr. Secretary, this is a frightening report.

    I was sitting here thinking as you proceeded that it would 
be very advantageous if some of the television times lamenting 
the convoying of some Federal officials, at least one, if there 
could be some attention paid to the risks and the threat to the 
security of this country of ours.

    Have you offered to make this information available to the 
administration?

    Mr. Rumsfeld. We have offered to make the information 
available to the administration. We have offered to brief the 
Pentagon, the Chiefs, the State Department and the National 
Security Council.

    We have a meeting scheduled to brief the senior officials 
of the intelligence community at the CIA and the DCI has 
requested that we meet.

    We had a brief meeting with Secretary Cohen prior to the 
release of our report and with the Chairman of the Chiefs, 
General Shelton. We have not briefed them on the report.

    The Chairman. I am particularly interested in all of them, 
of course, but particularly so in the reaction of our fellow 
North Carolinian, the Chairman of the Joint Chiefs, Hugh 
Shelton. The media refer to him as Henry Shelton. Nobody calls 
him Henry except people who do not know what he is called back 
home.

    You have offered a full classified briefing on the results 
of your Commission findings to the Chairman; is that correct?

    Mr. Rumsfeld. Yes, we have. I believe we have scheduled a 
meeting for next month with General Hughes, the Director of the 
Defense Intelligence Agency.

    The Chairman. Bill Cohen, with whom I enjoyed serving in 
the Senate, he has not apparently been interested either?

    Mr. Rumsfeld. We have not met with him since issuing our 
report.

    The Chairman. I am going to defer my further questioning 
until my colleagues----

    Mr. Rumsfeld. I should add, if you will excuse me, that we 
did meet also with the National Security Advisor to the 
President, Mr. Berger, prior to issuing our report, to give him 
a review of what we were thinking and spent some time with him, 
but we have not given a full briefing to him or his staff on 
our report since it's been issued, nor have we talked to anyone 
in the executive branch after they have had a chance to read 
the classified version. The most constructive way to do it, 
would be to have them read the classified version and then have 
the members of the Commission meet with them.

    The Chairman. Senator Coverdell, I am going to defer to you 
to begin the questioning.

    Senator Coverdell. I apologize for the fact that I had to 
leave for a moment. Mr. Secretary, we were chatting a little 
before the hearing. I would like to have your observations, and 
maybe the Chairman has already asked, just generally the 
response in the intelligence community, an overview.

    It was a pretty shattering report. What is the general 
response among the professionals that you are talking to, (a), 
and (b) how is it that--I mentioned it, I cannot cite it 
exactly, but basically we have had on the heels of this report 
an Administration ratification of no requirement to accelerate 
a time table dealing with this kind of threat.

    I would just like your observations or any of your 
colleagues' observations to this point.

    Mr. Rumsfeld. I will open by saying that there is a lot of 
anecdotal information I can find in terms of people's reaction.

    I think some people just wish the problem would go away. 
There have been two written documents that have occurred since 
our report that bear on our report. One was by Mr. Gannon and 
one by Mr. Walpole, both unclassified, and each reflect that 
they have read the report carefully and their comments indicate 
that the IC is migrating away from prior community positions to 
positions more closely approximating what we have submitted in 
our report.

    I would say our report is having an effect in the 
intelligence community.

    One other written document was this letter from General 
Shelton, the Chairman of the Joint Chiefs of Staff, to Senator 
Inhofe. It has a series of statements in it.

    One was that after reading the report, they remained 
confident that the intelligence community can provide the 
necessary warning of the indigenous development and deployment 
by a rogue state of an ICBM threat to the United States.

    The problem with that statement, with all respect, is that 
we don't believe there are any indigenous development and 
deployment programs in the world. Therefore, the fact that they 
remain confident that the intelligence community can provide 
the necessary warning of such indigenous development and 
deployment by a rogue state of an ICBM threat to the United 
States is not relevant.

    Second, the letter says that the Commission points out that 
through unconventional high risk development programs and 
foreign assistance, rogue nations could acquire an ICBM 
capability in a short time, and the intelligence community may 
not detect it.

    That's true. We did point that out and we did point out 
that the intelligence community may not detect it. But, they go 
on to say we view this as an unlikely development. The problem 
with that statement is that we do not believe it is an unlikely 
development. It is not only not unlikely in our view, but it is 
a fact that each of those have happened, so they can hardly be 
``unlikely.''

    There have been countries that have purchased entire 
missile systems. There have been countries that have launched 
ballistic missiles from ship board. There have been countries 
that have tested missiles on other countries' soil.

    There have been countries, including the United States, 
that have placed their missiles on other people's real estate. 
And, the Soviets tried to do it in Cuba.

    If tomorrow Iran announced they were placing a ballistic 
missile system in Libya to defend Libya, they would be 1,000-
plus kilometers closer to the United States, so they could 
threaten us with an abbreviated development program.

    The most disturbing part of the sentence I quoted is it 
says that through unconventional high risk development programs 
and foreign assistance, and then it goes on to say they view 
that as an unlikely development.

    Foreign assistance is not an unlikely development. It's a 
fact. It is happening all over the world as we sit here. Russia 
is helping India. Russia is helping China. China is helping 
Pakistan. China is helping Iran. North Korea is helping 
Pakistan. These countries are trading with each other, and they 
each provide assistance that brings the other countries along 
faster than otherwise would be the case.

    In answer to your question as to what has been the reaction 
to our report, this is one of two written reactions, and we 
find it disturbing.

    Senator Coverdell. It is a denial or it comes close.

    Mr. Rumsfeld. The Pentagon has to worry about budgets and 
they have to worry about other threats beyond ballistic 
missiles. They can't look at just the ballistic missile threat. 
They have to look at the full range of threats--conventional 
threats, terrorism, cruise missiles, what have you.

    That's true. Therefore, in my view, the thing to do is then 
say that that is the fact.

    Senator Coverdell. Only in deference to the rest of the 
committee, if the others want to comment on this, I would 
welcome it. Is that appropriate, Mr. Chairman?

    Mr. Chairman. That is fine.

    Senator Coverdell. Dr. Blechman.

    Dr. Blechman. I thought that was a very good response. I 
would only add that I believe the issue of the administration's 
reaction and so forth is complicated by the intense partisan 
nature of the debate on this issue.

    As a citizen, I find it very unfortunate among the people 
in the administration that I interact with, people on the sub-
Cabinet level, there is a great acceptance of the report and of 
the indisputable facts behind it as witnessed by events like 
the North Korea launch recently.

    I think there is an opportunity in the new year for a 
change in positions and for constructive movement toward more 
reasonable policies.

    Senator Coverdell. Dr. Graham.

    Dr. Graham. I think it has all been said, Senator.

    Senator Coverdell. I yield.

    The Chairman. Senator Grams.

    Senator Grams. Thank you very much. Mr. Secretary, thank 
you for being here. Gentlemen, appreciate your opportunity to 
join us today.

    When you talked about no indigenous programs--by the way, I 
think your report is just another warning signal that we have 
been receiving of our increased vulnerability of not paying 
attention to the defense of this country, which of course, is 
the first and foremost charge, I think, of the Federal 
Government, over and above everything else.

    When you talked about no indigenous programs, technology 
transfers, partnerships for different reasons, strategic or 
economic, why do you think the Chinese or the Russians would be 
involved? Some of this is posing probably as big a threat to 
them because today's allies could be tomorrow's opponent.

    What would cause them to be part--I can see Iran, Iraq and 
some of the developing countries wanting to latch onto this 
technology, but why countries like Russia and China being 
involved in this type of exchange?

    Dr. Graham. I think Russia and China have some different 
interests and different concerns than ours, and they are 
reflected in their activities in this area very directly.

    For example, states that we call rogue states, Iran, Iraq, 
Syria, Libya, might better be characterized as client states to 
Russia and China as well, North Korea certainly fits in that.

    Those are states with which they have in the past and I am 
sure hope to continue to exercise some political and diplomatic 
and possibly military influence, so they see them very 
differently than we do, and look to greater interaction and 
cooperation with them than we would.

    Second, of course, in the case of Russia and to some 
degree, China, and certainly North Korea, there is good money 
in selling ballistic missiles and ballistic missile 
technologies and at least by implication, the technology that 
supports the warheads for missiles as well, which in their most 
effective form are weapons of mass distruction, nuclear, 
biological and chemical weapons.

    This is an area where even a country as backwards as North 
Korea, as poor and as isolated as North Korea is, can find a 
significant market in the world for its ballistic missile 
technologies, and for the same reason that Chairman Rumsfeld 
mentioned, ballistic missiles have an appeal to the developing 
part of the world, the ability to sell to the developing part 
of the world has good economic potential.

    For all of these reasons, for influence, for the economics 
or military cooperation and involvement, and in some cases, 
just to provide the ability for the engineering and scientific 
cadres to survive in Russia today and possibly other countries 
as well, North Korea, the potential to transfer this technology 
looks very appealing.

    Mr. Rumsfeld. I would add that, clearly, China's interest 
in helping Pakistan is strategic. They have a long border with 
India and they have had border wars and they would rather have 
India occupied on the other side.

    The other thing I would point out is that the United States 
and Western Europe are major technology transferrers as well. 
We live----

    Senator Grams. Intentionally or unintentionally, like the 
missile technology transfer that may be in a different hearing?

    Mr. Rumsfeld. I would say both, but mostly unintentionally. 
We live in the post-Cold War world which is relaxed. All kinds 
of students train in our country and other western countries. 
Numerous international scientific symposia, leaks of classified 
information, espionage, and the demarches the U.S. makes end up 
supplying information to other people as to how they can do a 
better job of deceiving us.

    The reality is that these technologies, over time, are 
going to get in other people's hands. We ought to try to stop 
it. We ought to do what we can to delay it, but the reality is 
that our country is going to have to recognize that other 
nations are going to have increasingly sophisticated 
capabilities.

    Thinking we can plug all the holes is a mistake. I don't 
think we can plug all the holes. I think we are going to have 
to be willing to invest so that we can live with the increased 
risks that are inevitably going to follow increased 
sophisticated weaponry in the hands of people who do not wish 
us well.

    Senator Grams. Just quickly before my time runs out, former 
CIA Director, Robert Gates, had a different conclusion. He said 
we did not face any long range missile threat before the year 
2010. Why do you think your Commission reached such a different 
conclusion?

    Mr. Rumsfeld. I would say first that I think if you talked 
to him today, he would have a different answer. I shouldn't 
speak for him and I can't, but a great deal has happened in our 
world since he issued his report.

    Time has passed. There have been many events that have 
occurred. We are living in a situation where I think people are 
increasingly aware and will become even more aware over the 
coming 6 to 8 months. I suspect you will see the intelligence 
community views evolving.

    I can't believe you will see another letter like this one 
out of the Pentagon.

    Senator Grams. But today's facts are better than 
yesterday's estimates, we know more today than we did?

    Mr. Rumsfeld. We do.

    Senator Grams. Thank you very much.

    The Chairman. Senator Hagel.

    Senator Hagel. Mr. Chairman, thank you. Gentlemen, welcome 
and we are all grateful for the good work you have done here. 
You have advanced a very serious issue in considerable ways and 
you are continuing to work, and that is not, as you know, 
always the case. We are all better off for what you are doing. 
Thank you very much.

    Mr. Secretary, would you and your colleagues give me your 
thoughts on this Administration's current ballistic missile 
defense position, if there is one?

    Dr. Blechman. Yes, sir. The Commission, of course, did not 
look at this issue and discuss it and we don't have a position 
as a commission. My personal view is that the U.S. should be 
deploying a limited missile defense, as the technology becomes 
feasible.

    These deterrents, there is always a weak read, and in the 
case of the Soviet Union, it was the best we could do, given 
the size of their missile forces, but against these smaller 
forces now emerging, we can provide effective defenses as a 
supplement to deterrents.

    However, I think we should do this in a way which doesn't 
jeopardize relationships with the Russians. We need to start 
talking with them, to have a strategic dialog and to move to 
alter the arms control regime, both on the offensive side and 
the defensive side, to modify the ABM Treaty or replace it with 
something else, do this cooperatively, but make clear from the 
outset, we are doing this, we are deploying this limited 
defense system, that we hope you will move with us in a 
cooperative relationship so that all of us can live in a safer 
world.

    Senator Hagel. In your opinion, does that require changing 
the 1972 ABM Treaty, as Ronald Reagan once said, a nation now 
assigned to the dust bin of history, is that treaty relevant?

    How can you move forward with a defense system unless you 
engage the treaty?

    Dr. Blechman. The treaty is relevant to our relationship 
with the Russians. Since Russia is a powerful country 
militarily and has very large nuclear forces, I think it's only 
sensible to not tear up the treaty but rather to change it in a 
cooperative way with them.

    It depends what specific system you want to deploy. If, for 
example, as has been suggested, we should deploy our national 
missile defense system in Alaska, that would require a change 
in the treaty. That shouldn't be an insurmountable obstacle.

    Senator Hagel. Thank you.

    Dr. Graham. This Administration has stated several times 
that the ABM Treaty is a cornerstone of our national security. 
I believe if that is the cornerstone upon which the policy is 
based, then we will never have an effective ballistic missile 
defense either at the theater level or at the national level.

    As far as the Soviet or Russian response is concerned, I 
believe that as a practical matter, there is no way that Russia 
or anyone else could construe a light missile defense that we 
might build in the next few years, as being something which 
would threaten their ability to destroy the United States 
whenever they wished to do so.

    Personally, I think it is a terrible point of national 
security policy that we grant them the ability to destroy our 
country any time they wish to do so, and have only the ability 
to destroy their country as our response to that.

    Even if you accept that chain of logic, then there is no 
way anything we are going to build in the next few years will 
go to that level of defense.

    Nonetheless, we could defend ourselves against threats from 
developing countries and China within the next few years. 
However, the ABM Treaty prohibits us from doing that very 
explicitly. It says we may not construct a territorial defense.

    That treaty was negotiated and written by diplomats in the 
currency of diplomacy, although I'm an engineer, I have come to 
learn as ambiguity, so everyone can agree to it, once there is 
a treaty, that is then interpreted in the United States at 
least by our lawyers who deal in precedent and precision in the 
language, so suddenly this document born in ambiguity is being 
interpreted in a very precise way, usually with the greatest 
possible constraints imposed.

    The product that comes from that process is given to the 
engineers to build and the currency of their realm is cost, 
schedule and performance. If they don't know what they are 
allowed to do and what they aren't allowed to do, it's very 
hard to make something that has a known cost, schedule and 
performance, and if anything comes out of that process, and not 
much has, it is handed to the military to try to operate and 
defend the country with.

    I don't think I could invent a worse way to defend the 
country if I spent all month trying to think about it.

    Senator Hagel. Thank you. I think that was rather clear.

    Mr. Secretary.

    Mr. Rumsfeld. Very briefly, as Dr. Blechman said, we did 
not take this as a Commission assignment, so these are personal 
views.

    Weakness is provocative. It encourages people to do things 
that they otherwise would not think of doing. The reason 
ballistic missiles are so attractive is because they can arrive 
at their destination undefended.

    Therefore, countries look around the world and asking 
themselves, how can they assert influence in our region and 
dissuade other nations, the United States included, from 
involving themselves to our disadvantage in those regions.

    What can they do that will give them that kind of weight. 
They know their armies cannot do it, their air forces cannot do 
it. The answer they come to is ballistic missiles.

    It seems to me by not addressing that as a country, we are 
encouraging nations. I do not know what the number is today, 
but it is somewhere between 20 and 30 countries that either 
have, have had, or are acquiring ballistic missiles of various 
sizes and shapes, the ranges of which are going to increase 
over time and the warheads of which are going to become more 
powerful over time.

    I come out right where our recommendation is. First, three 
plus three, it seems to me, is overtaken by events. One can not 
favor ballistic missile defense for other reasons, such as 
budgets or the technology, but not because they believe three 
plus three is credible, in my view.

    I would think it is important for the administration to 
study the report, to look at our recommendation and have a 
systematic review of their positions. I would hope they would 
change and reflect the reality of the little or no warning 
environment we are in.

    Senator Hagel. Thank you. Mr. Chairman.

    The Chairman. You two gentlemen go ahead and vote and then 
come back. Paul Coverdell will be here shortly and he can 
succeed me for a while.

    One of the great issues today in the political arena is the 
very thing we are talking about. There is a tendency among some 
to say, look, nobody is dumb enough to start a war. I hope 
nobody is dumb enough to believe that.

    Yesterday, we had a thorough discussion of it. The thing 
that bothers me is the chief executive of our country diverted 
in terms of his attention to other things and he is not 
thinking straight on the question of the defense of this 
country. There are a lot of people who believe that most 
sincerely.

    On my part, Mr. Secretary and gentlemen, my belief is that 
the Clinton Administration's non-proliferation policy has 
collapsed so completely that the administration genuinely, 
perhaps, but obviously mistakenly, believes that the leaders of 
foreign countries have at heart the same basic interests we do. 
They do not. They do not think like we do. Their goals are not 
the same.

    On that assumption flows the belief that if only we could 
give them all the information they need, they would seek out 
and terminate the activities of those who are misbehaving. 
Anybody who believes that is overdosed on dumb pills.

    As a result, the administration has been sharing a deluge 
of sensitive intelligence information. I wish I could go into 
it this afternoon and I cannot. Intelligence information in the 
form of diplomatic statements and questions with Russia and 
China.

    I want to have your opinion of what effect all of this 
sharing of information has had upon the U.S. intelligence 
community's ability to monitor missile proliferation. Do you 
want to take a crack at that, Mr. Secretary?

    Mr. Rumsfeld. Sure. I have been told that the United States 
probably makes more demarches around the world than all the 
other countries on the face of the earth combined.

    There is no question if you go to another country and tell 
them you would like them to do something based on some 
information you have, it is not surprising they are going to 
ask for the information, the evidence. To the extent that you 
give them the information and it reveals sources and methods of 
intelligence collection in ways that enable those countries to 
know that a specific channel of communications is compromised, 
they will likely use different channels.

    The one effect of a demarche is that the information that 
you have that is confidential is now in the hands of the other 
people and they then use that information to close down that 
channel. It leads the people who are doing the proliferating to 
follow a different path.

    The second point you made I think is correct, that 
countries do have different interests. There are countries that 
we have intimate relations with that we are not going to change 
because some other country comes over and tells us we should. 
Every country has countries like that, that they have intimate 
relationships with. They are not going to severe relationships 
with such countries simply because the United States comes and 
asks them to do so. It is expecting too much.

    I should begin by saying anti-proliferation has been a good 
thing. That is to say we have achieved some successes in 
keeping countries from not developing nuclear weapons and/or 
not having ballistic missiles.

    On the other hand, it is far from perfect and over time, we 
have to face reality. We are not going to live in a world that 
is static. Other countries are going to get advanced weapons.

    The Chairman. I am going to vote and I will be back, if you 
will take over, Senator.

    Senator Coverdell. All right, Mr. Chairman. I am going to 
proceed with the formal questions that were prepared for the 
Chairman, but before I do, now that we have a public 
demonstration of the launch now in the public sector, the 
launch of the three-stage ballistic missile by North Korea over 
the land mass of Japan, subsequent to your report, any 
observations about the public nature of that demonstration and 
what particular note the United States and the free world ought 
to make of that?

    Dr. Graham. One of the arguments that was made in favor of 
it taking 15 years to develop ICBM capability by these 
developing world countries, such as North Korea, although in 
their case, they may be the undeveloping world, since they seem 
to be going backward in their economics and other dimensions 
except for missiles, but in any case, one of the points made 
was that missile staging was difficult and sophisticated and 
required systems integration and advanced capabilities, which 
they had not yet acquired and had not demonstrated, and it 
would take them a long time and many tests to show they could 
do missile staging.

    What the Taepoe Dong 1 launch showed after the U.S. 
intelligence community finally figured out what the data 
collected meant was that in fact the missile had not 
successfully staged once but it had successfully staged twice. 
The second stage had worked and the second to third stage had 
worked.

    What this meant in terms of the advancement of the program 
was enormous because it said now they understand enough about 
multi-stage missiles to build them and in this case, have the 
staging part of the flight work the first time they tried it, a 
very impressive accomplishment.

    It also gives the Taepoe Dong 1 a capability to shoot a 
small payload, probably in the 10's of kilograms region, to 
intercontinental missile ranges, which are above 5,500 
kilometers, but potentially, as the Chairman said, out to 6,000 
and potentially even beyond that.

    These are probably payloads that once you get beyond 6,000 
kilometers at least, they are small enough that they are not 
suitable for most nuclear weapons, but they are certainly 
suitable for biological weapon deployment. Perhaps more ominous 
yet, the North Koreans have in development a Taepo Dong 2 
missile, which is a much larger missile, which had been 
estimated to be a two stage missile by the intelligence 
community up until now, but if operated and configured as a 
three-stage missile, would be clearly an ICBM capable of 
delivering nuclear warheads to essentially any location in the 
United States.

    One way to look at that is that we are one Taepo Dong 2 
three-stage missile launch away from the North Koreans having 
clearly demonstrated a nuclear capable ICBM, and I think that 
is of great concern and there is no reason to believe that is 
in the distant future and in fact, there is no reason to 
believe it couldn't happen with little warning at essentially 
any time, as we say in our report.

    Dr. Blechman. I might add the North Korean launch is very 
interesting. Its impact is perhaps greater on the not so free 
world in that I understand the Chinese are furious at the North 
Koreans because the test, of course, pushed Japan forward into 
developing jointly with us missile defenses for Japan, 
something the Chinese had hoped to avoid.

    The North Korean program tells us, one, the enormous 
priority they give to developing these kinds of capabilities. 
After all, this is a country that we are told is starving and 
millions of people are starving, and yet somehow they find the 
resources to pour into these programs, which as you know, are 
not inexpensive.

    Second, the audacity of launching over Japan, over Japanese 
air space and triggering the kinds of reactions it has had in 
Japan and elsewhere.

    Third, the willingness to risk their relationship with us 
in the small steps that had been taken toward some cooperation 
with us. It tells us that they are very serious about this 
program. They give it a high priority and have good reasons of 
their own which we probably don't understand very well. We know 
very little about it. We were surprised, again, at it having a 
third stage, at the type of engine this third stage had, at the 
satellite attempt, attempt to launch a satellite. We know very 
little about North Korea. We know very little about its 
programs and we certainly know very little about its motives.

    Mr. Rumsfeld. Three quick comments. There is no question 
but that to the extent Japan and Korea have, over decades, 
arranged themselves under the umbrella of the United States and 
thereby avoided doing certain types of things, including the 
development of nuclear capabilities, the concern in Japan about 
this is real and it has to raise questions on their part about 
U.S. intelligence capabilities to defend them, because they 
know ballistic missiles are undefendable. So, that is a factor 
that will affect behavior in Northeast Asia.

    Second, from the standpoint of the North Koreans, it was a 
fine advertisement. The launching of the TD-1 told the world 
that they have an advanced capability that the rest of the 
world didn't think they had, and that it's for sale, to Iran or 
whoever, to the extent they want it, they can buy it. That is 
an important complicating factor.

    What happened in North Korea is interesting and important 
for North Korea, but it is also exceedingly interesting and 
important from the standpoint of other nations that can 
abbreviate their programs toward acquiring those kinds of 
capabilities.

    Senator Coverdell. Mr. Secretary and to the others, now 
that the report is out and we have had it in the world of 
debate for a period of time, your report was not commissioned 
to do so, but I would be interested if the President or the 
Secretary of Defense, the congressional leadership, were to ask 
you what do you think as a result of this report the United 
States should do or change, what would be your response?

    Mr. Rumsfeld. We would not have a Commission response 
because as you say, we didn't address that. We do have one 
response as a Commission, and that is our recommendation that 
they ought to sit down and look at the world as it really is, 
not the way they wish it were, and review all of our policies 
that are anachronisms, that go back to an earlier time when we 
had extended warning, when we had overwhelming capabilities, 
when we had different degrees of deterrent effect, when we were 
conceivably somewhat less vulnerable to some of these 
asymmetric responses by other nations.

    I think that is the first task.

    Dr. Blechman. I was struck by the opportunity afforded to 
me by service on this Commission and to see the vast array of 
information on proliferation by the extent to which the 
knowledge and techniques to develop and build weapons of mass 
destruction of various types and the missiles to deliver them 
has spread and continues to spread around the world.

    To my view, there is no threat in the same league to the 
United States and its security than the threat of weapons of 
mass destruction on ballistic missiles.

    Although we give a lot of rhetoric to this issue, to my 
mind, this Administration or any administration before it has 
given that threat the seriousness with which it requires. This 
is a threat that can kill us, kill many millions of Americans, 
and we talk about it and we take halfway measures, and that is 
about it.

    It requires comprehensive policies. No defense is going to 
provide total immunity against these forces. No defense is 
perfect and no proliferation, non-proliferation or anti-
proliferation policy is perfect. It takes a comprehensive 
policy that covers diplomatic approaches, including arms 
controls. It requires defense strategies. It required offensive 
means. It might require conventional actions, military action.

    If you take the threat seriously, you have to begin to look 
seriously at the range of options. To my mind, any 
administration and any congressional leadership should look 
comprehensively at these threats and how we might deal with 
them in a serious way.

    Senator Coverdell. Just to comment on that, then I will 
come to you, Dr. Graham, I agree with you that is one that does 
not rest at the feet of any one administration, with one 
exception, and that is your report.

    Your report is changing the dynamics. Everything up until 
your report is based on the language that was in General 
Shelton's letter, that is parroting what former presidents have 
been told.

    I agree with you, Mr. Secretary. Japan has to be looking at 
this in a very different way because prior to that missile 
going over their air space, they were reading the same reports 
that former presidents, former national security councils, et 
cetera, were reading. You have changed the paradigm.

    Dr. Graham, do you want to comment on this?

    Dr. Graham. Yes, Senator. I agree with my colleagues that 
from the Commission point of view, our single recommendation is 
the course that we would pursue. Beyond that, personally, I 
agree with Dr. Blechman that the U.S. needs a comprehensive 
policy to deal with the ballistic missile and by association 
probably the cruise missile and other external threats to the 
U.S. That is very clear and well stated and formidable. We do 
not have such a policy at this point.

    In addition to that, I have watched the effect of the 
various arms control constraints and in particular the ABM 
Treaty, upon our ability to develop and deploy ballistic 
missile defense systems, both theater range and longer range, 
for both regional defense and for national defense for many 
years.

    I looked at it when I was President Reagan's Science 
Advisor in his second term. I was the Chairman of the SDIO 
outside advisory committee for 3 years during the Bush 
Administration.

    I must tell you, the ABM Treaty, as it is interpreted by 
the U.S. and implemented by both Republican and Democratic 
Administrations, has a corrosive effect upon our ability to 
defend ourselves against ballistic missiles.

    Just as one example, there is an office in the Department 
of Defense called the compliance review group, the CRG, which 
looks at whether defense systems we are considering developing 
are in fact compliant with the ABM Treaty. It is actually an 
interagency group chaired by an individual in the Office of the 
Secretary of Defense.

    When you approach them with a ballistic missile defense 
system concept, what you are told is they do not deal in 
conceptual systems. They want to see a specific system design 
and then they will judge whether it is compliant with the ABM 
Treaty or not.

    The compliance review group probably cost a few hundred 
thousand dollars a year to run. The development of a ballistic 
missile defense system costs a few hundred million dollars a 
year to run, and sometimes it is $1 billion.

    What you are doing is you are putting in jeopardy a few 
hundred million dollars a year in system development while the 
compliance review group waits until you have a sufficiently 
well specified system, so that they have what they consider to 
be a development program in hand, which they can then judge the 
compliance.

    This has a completely backward order of doing things. What 
it does is it forces the defense system designers to be 
extremely conservative in how close they approach to the limits 
of the ABM Treaty, and in fact, they usually come down quite a 
way from it so they won't be torpedoed at the last moment by 
the compliance review group.

    This is just one of about a dozen examples I could cite to 
you of not always obvious and not always flagrant, but subtle 
corrosive effects this Treaty has on our ability to develop 
defense systems. I believe the Treaty has made a major 
contribution to the delay and the cost of building defense 
systems to this point in time.

    Mr. Rumsfeld. I would like to come back to that question. 
If you think about the circumstance of the Japanese and the 
Korean people, their governments, and defense establishments, 
when North Korea launches their missile, and the helplessness 
that they have to feel about the situation. They do not 
currently have the ability to do anything about the fact that 
North Korea is developing those capabilities except preemption.

    Similarly with Israel. If you think of the feeling of 
helplessness in Israel when the scud missiles were coming in 
during the Gulf War, and consider how they feel about the 
Iranian missile launches of the Shahab-3.

    When such events occur, those countries reconsider their 
positions. Japan and South Korea are now in the process of 
manifesting their concern, discussing and deciding to do 
something about that.

    Israel is in the process of doing something about that 
vulnerability.

    It says something about warning. Does the United States 
need to have missiles raining down on us like Israel did before 
we decide that we ought to do something about it? Does the 
United States need to have missiles launched over the 
continental U.S., as Japan recently has, before we decide to do 
something about it?

    The question of warning is a fascinating subject. What is 
it? How much of it do you need to have it? What do you do with 
it? When does information become actionable? When does 
something so register in our minds, collectively, as a body 
politic, that we decide yes that is sufficient warning?

    The important book by Roberta Wohlstetter about this 
subject suggests that there was a great deal of warning, 
depending on how you define the word ``warning,'' before Pearl 
Harbor. There was an enormous amount of information.

    Was there information explicitly that they were going to 
attack Pearl Harbor? No. Was there just an enormous amount of 
information that things were happening, attacks could occur a 
number of places, that there were activities that reasonable 
people could take as warning? Yes, an enormous amount.

    It is interesting to ask one's self, what do you suppose it 
will take for the United States to decide that the nature of 
the threats in the world have changed and we really ought to do 
a systematic, thoughtful, constructive, bipartisan review and 
analysis of how we want to be arranged in this new and 
different circumstance.

    Senator Coverdell. I could not agree more. For one, I do 
not need any more warning. I think there is a factor here that 
responds to the question you raise, and that is it is my 
interpretation anyway that a large number of the American 
people do not realize that there's not an effective--they have 
always assumed there was a defense mechanism and do not know 
even today that there is not.

    My guess is the answer to your question is when enough 
people like yourselves or myself build a large enough audience 
to understand the vulnerability, that the policy will begin to 
change.

    I am perplexed, as I said to you before the hearing began, 
that the initial response, and I do not say this in a partisan 
way, but the original response of the administration is not 
unlike that letter that Senator Inhofe got from General 
Shelton. That is a question that you wonder what does it take.

    My conclusion is that what it takes is a population in this 
country that recognizes the vulnerability, and I suspect when 
that happens, you will really begin to see a momentum to change 
and to address the issue your report has raised.

    Mr. Chairman, I became a lone ranger here and got off on 
some matters that are not really in the official questions.

    The Chairman. Thank you, Paul.

    Senator Coverdell. Thank you, Mr. Chairman. I will 
apologize to the panel. I appreciate very much the work you 
have accomplished, the service that you represent and continue 
to do for our country. I will excuse myself at this point. 
Thank you.

    The Chairman. Gentlemen, it is good to be with you again. 
Walking back and forth is a wonderful thing and I hope I get to 
do it again. People say, what is wrong with you. I say, well, 
what do you think? Having double knee replacement is an 
interesting experience. Howard Baker told me that it would be, 
and he was exactly right.

    Let us talk about dual use technologies for just a minute. 
I belong to kind of a conservative element who believes that it 
is folly for the United States to ignore the fact that the 
increasing availability of dual use technologies, particularly 
through space launch programs, will enhance the ability of 
countries to produce ballistic missiles and re-entry vehicles.

    As a matter of fact, we have already mentioned here this 
afternoon that we particularly discovered this fact with 
respect to the satellite launches from China.

    I want to know how your Commission assesses the 
intelligence community's confidence levels in monitoring space 
launch programs to ensure that they do not contribute to a 
ballistic missile program.

    Mr. Rumsfeld. It's a subject we have talked about.

    The Chairman. Have you already covered this?

    Mr. Rumsfeld. No, not today, in our Commission hearings, we 
have talked about this. Dr. Graham was one of the two skilled 
technical people on the Commission and in the Commission 
hearings, he contributed a lot on this subject.

    Dr. Graham. Space launch rockets and ballistic missile 
rockets are essentially identical up to the point that they 
deploy their payloads. In the case of the space launch vehicle, 
the payload is a satellite, and in the case of a ballistic 
missile, it's one or more re-entry vehicles.

    All of the machinery to get you into space is the same and 
in fact, I believe all of the U.S. large space launch vehicles 
today, except for the shuttle, are derived from ballistic 
missile launchers.

    In the case of Russia and China, there are also a number of 
space launch vehicles which were derived from ballistic 
missiles.

    It's also possible to go the other way, make a space launch 
vehicle and then derive a ballistic missile from that.

    There is a great deal of overlap and similarity in the 
technology, some of it essentially complete and identical. 
Anything that helps a space launch vehicle capability will 
certainly help an ICBM capability based on that or similar 
technology. If the space launch vehicle doesn't need help, then 
it already has the capability. If it needs help, then probably 
an ICBM that is similar to that also needs help and if you help 
the space launch vehicle, you will help the ICBM capability or 
ballistic missile capability as well.

    It's a deeper issue than that because it goes on back 
through the technology of not only making the launcher but 
educating the technical and other personnel to operate the 
systems and conduct the launches, monitor the payloads before 
they are launched and so on.

    There is a great deal of technical information that has to 
flow back and forth between countries, for example, if we are 
going to launch one of our satellites on another country's 
boosters, that country has to know a great deal about the mass 
distribution, the structural response, the way the satellite is 
put together mechanically, so that they can be sure it will 
survive and the rocket will survive to launch it into space.

    Finally, going back even further, in the U.S., probably the 
greatest technical transfer we make is the one the Chairman 
mentioned earlier. We have over 100,000 foreign graduate 
students in the U.S. at any given time, many, many of them in 
the fields of advanced technology, studying in our 
universities, and while our public schools, elementary and high 
school level aren't always the best, by the time you get to our 
graduate universities, you have the best schools in the world 
teaching all of these individuals the most advanced technology 
in the world.

    Some of these people stay here and are very constructive 
members of our society and some of them go back to Iran or back 
to other countries, Russia, China, many, many from China, where 
they take this technical capability with them. That is the 
foundation of any technical infrastructure and high technology 
country, the people who understand the field and are competent 
at it.

    Their graduate students are as good as our graduate 
students. They learn as much as our students do. Unfortunately, 
when they are given Visa's to come in to study, the actual 
field that they end up studying is not tracked by the 
Government, so we don't know what they do once they get through 
the Immigration and Naturalization Service as far as being 
university students.

    As far as I can determine, there is nothing reported back 
to the Immigration and Naturalization Service or the State 
Department other than perhaps the fact they are still students.

    They can change majors, audit courses, study what they like 
once they get here, and we have no knowledge of it. It is very 
hard for us to even know what we are teaching them and follow 
that, much less control it.

    You could make this process too restricted, but in my view, 
it has gone completely the other direction at the moment and we 
are far too unrestrictive in who we educate and what we educate 
them in and what we know about what we are educating them in 
today.

    Mr. Rumsfeld. You can see why I selected Dr. Graham to 
answer that question.

    The Chairman. I was smiling because I was remembering an 
episode that occurred to me back when George Bush was 
President. I got a call from the White House, what kind of 
universities do you have down there which specialize in 
engineering and other technical things.

    I said we have North Carolina State University, where there 
is no better anywhere, and that's true.

    Arrangements were made and the President invited me to 
accompany him to my home town and we went to North Carolina 
State University, and all the students waved to him and blew 
him kisses and all the rest of it, and then we went over to a 
very technical engineering section.

    On the way, he said who attends, who are the dominant 
students who attend this university. I told him about the farm 
boys from eastern North Carolina and all the rest. We got in 
there, and vow that this is correct, there were nine students, 
all in their white laboratory jackets and smiling and waving to 
the President, and seven of them were Oriental's. He said, all 
these grew up on a farm in eastern North Carolina, I suppose. 
[Laughter.]

    The Chairman. Let us talk a little bit about the dual use 
technologies. I am interested in the space launch programs and 
you may have covered this while I was gone. We have discovered 
that the space launch program will enhance the ability of 
countries to produce ballistic missiles and re-entry vehicles.

    Tell me, how does the Commission assess the intelligence 
community's confidence levels in monitoring space launch 
programs to ensure that they do not contribute to a ballistic 
missile program?

    Dr. Blechman. I don't think we have looked specifically at 
the programs that are in place to monitor these cooperative 
programs that go on, and I know personally I am awaiting the 
results of the investigation going on in the other House at 
this point.

    I think this question of cooperation in space projects is a 
difficult one. There is absolutely no doubt that space 
launchers and ballistic missile launchers are based on the same 
technology and improving one potentially improves the other for 
the other side.

    On the other hand, isolating these countries' space 
industries' infrastructures and in some ways, provide them with 
more incentive to work with countries that we would prefer not 
to get these capabilities.

    You have the Russian program, for example. The American 
aerospace companies and satellite industries, association 
members have testified as to the benefits the U.S. gets from 
its cooperative programs with the Russians, both in terms of 
cost savings and in terms of technology coming into here. The 
Russians are very good at rocket engines, for example, and are 
utilizing some of that technology.

    Also, we are providing work for Russian missile engineers, 
missile engineers who might otherwise go to work for North 
Korea or Iran or add to the Russians who might already be in 
these countries.

    It's a difficult question. There is certainly the risk of 
compromise. I wouldn't want to see any American companies or 
individuals working with Iran, Iraq or North Korea, countries 
directly hostile to us, but whether there should be a 
succession, termination, curtailment of our cooperative 
programs with Russia or China, commercial programs, I really 
don't know at this point. I think it deserves a serious look.

    The Chairman. Let me ask it another way and maybe you 
answered it earlier. Let us say Russia were to construct a 
space launch facility or facilities in countries already 
receiving massive Russian ballistic missile assistance, like 
China and Iran.

    What will be the effect on the speed of the development of 
those countries' ballistic missile programs? Would it hasten 
them or have any effect?

    Mr. Rumsfeld. There's no question but that it would hasten 
them to the extent that Russia assists another country with a 
space launch activity like Iran or Iraq.

    As Dr. Graham indicated, the dual use aspects of so many 
elements and so much of the knowledge have to accelerate their 
ballistic missile development programs.

    The Chairman. What do you think is the intelligence 
community's ability to monitor such developments as I have 
described?

    Mr. Rumsfeld. We really didn't focus on that. We looked at 
the intelligence community's ability to monitor ballistic 
missile development itself, but not necessarily directly 
relating to space launch vehicles and the interplay between the 
two.

    Our general view on the intelligence community's ability to 
monitor ballistic missile developments in the target countries 
was that those capabilities have eroded and are eroding.

    The Chairman. The 1998 NIE assumed, and I am quoting, 
``unauthorized or accidental launch of a Russian or Chinese 
strategic missile is highly unlikely as long as current 
security procedures and systems are in place.''

    I think you touched on this earlier, but I think we ought 
to elaborate on it. What do you think, in view of the fact that 
this statement is at odds with a September 1996 CIA report, 
which according to the media articles, concluded, and I am 
quoting, ``the Russian nuclear command and control system is 
being subjected to stresses it was not designed to withstand 
and that the command posts of the Russian strategic rocket 
forces have the technical capability to launch without 
authorization of political leaders or the general staff. Given 
time, all technical security measures can be circumvented, 
probably within weeks or days, depending upon the weapon 
involved.

    I would like your analysis of that.

    Mr. Rumsfeld. We had briefings directly on that point.

    The Chairman. Good.

    Dr. Graham. We were and are very concerned about that. We 
went back and reviewed incidents that we had in the 1979/1980 
timeframe, when we had gotten false indications on our warning 
systems, and then took the analysts who are currently 
responsible for looking at Russian capabilities with us, so 
that they would understand the experience the U.S. had, so we 
could discuss that issue in a common framework.

    We have pursued that and generally, it was our conclusion 
from the intelligence data we were presented that the Russians 
are seriously concerned about the possibility of accidental 
launch, that they have attempted to configure their systems so 
that their rockets, their ICBMs, could not be launched 
accidentally or launched capriciously by some lower level of 
command.

    I would say two caveats to that. One, I agree with the 
general notion that if you have a long enough time with an ICBM 
in your possession, you should be able to make it launch, 
particularly if among your personnel are the people who 
maintain that ICBM and therefore know a lot about its technical 
implementation and functioning.

    It seems to me possible that one or some ICBMs might be 
launched that way but difficult to launch a huge number of 
them. Nonetheless, one ICBM can take out more than one city. 
This is not a small matter, even when it comes to one ICBM.

    Second, even since we wrote our report, the stresses in the 
Russian system seem to be increasing substantially. I saw a 
report in the press this morning in which the First Deputy 
Minister was basically making a threat, that he demanded the 
IMF pay Russia the next increment of loans, and then in the 
next breath he seemed to say that it was important that Russia 
continue to make modern and increasingly accurate ballistic 
missiles.

    This is a country which is basically going bankrupt or 
perhaps already bankrupt.

    I think it is a serious worry and I think the situation 
there is very dynamic and even if we thought they had a 
reasonable control system 3 months ago when we wrote the 
report, I would want to go back and look at the data again 
before I thought they had one today, and I would watch the pace 
of change of their social structure as a key indicator as to 
the stability of that system.

    Mr. Rumsfeld. We also have a small section in our report, 
both the classified and unclassified versions, concerning the 
year 2000 computer problem, and the issue that could interplay 
in one way or another, either with the missiles, the control 
systems, the external infrastructures or the warning systems, 
in a way that could be worrisome.

    In your question, you used the phrase ``as long as current 
security procedures are in place.'' Just to underline what Dr. 
Graham said, if you are not paying your army salaries and you 
are not paying the Navy salaries and you are not paying the Air 
Force or the rocket forces' salaries, and you are not paying 
Customs and Border guards' salaries, it doesn't take a lot of 
imagination to figure out what is going to happen over a period 
of time.

    People are going to feel they are not getting paid, 
therefore, they are going to be ``entrepreneurial,'' to feed 
and support their families.

    It has to be a worry that the salaries are not being paid 
in the governmental structure. One would hope that people who 
are in charge of nuclear weapons are being paid faster than 
people who are not.

    The Chairman. Even if they are being paid, when was it, 
1995, I think, Norway launched a meteorological rocket and what 
some have said was the closest call of the nuclear age. In the 
midst of this crisis, what happened? The Russians' strategic 
and nuclear force control terminals, I think they called them 
nuclear footballs, were reportedly switched to alert mode for 
several minutes.

    Did your Commission look into that and do you have an 
opinion about the implications?

    Mr. Rumsfeld. We did look at it, and then a series of 
events followed. People are of two minds on it. One view is 
that the concern about that Norwegian sounding rocket moved too 
far up the chain toward Mr. Yeltsin. The other view is that the 
warning system worked and that in fact, nothing was done that 
should not have been done.

    Unfortunately, a good deal of it is classified, the 
briefing we received, and I do not know that I can say much 
more about it.

    Dr. Graham. I might add one thing. The official U.S. 
position has been, as far as I can tell, that everything worked 
as it should have there and control was maintained. Clearly, 
they didn't launch anything. The message by which Russia was 
notified of this launch was delivered several days in advance 
to their Foreign Ministry and apparently didn't make it from 
the Foreign Ministry to the missile warning people before the 
launch occurred. That indicates some unraveling of the 
infrastructure there.

    If you compare it with the U.S. situation, and I believe it 
was 1979, we had a technical problem that resulted in a few 
minutes of false warning at our North American Air Defense 
Headquarters in Cheyenne Mountain at Colorado Springs.

    The indication of warning did not go as high as the 
President in that event. It did go as high as the Commander and 
Chief of the Strategic Air Command, and as a result of that, 
very substantial and widespread changes were made throughout 
our missile warning and defense system. That was considered a 
major event and in fact, a major problem, and to this day, they 
live with the changes that were made because of that.

    When it happened to us, it was a very big thing. My view is 
since the message seems to have gotten all the way to President 
Yeltsin in Russia, it was a very big thing in Russia.

    The Chairman. We have kept you folks here too long, but it 
has been very helpful to me. I am going to try to make it 
helpful to a lot of people who will read our report on what you 
have said here today. I think all Americans ought to read it. 
Maybe enough people will to stir up a little interest in 
something besides what happened at the White House on a certain 
night.

    The last question I am going to ask you, I was concerned to 
note that one of the Commission's key conclusions was that the 
intelligence community's ability to provide accurate estimates 
of ballistic missile threats to the United States is eroding, 
quoting.

    The Downey report warning was that the Clinton 
Administration has imposed policy restrictions on the 
recruitment of intelligence sources, which, and I quote ``may 
hamper the effects or the efforts of national intelligence 
agencies and lead to what they call intelligence gaps.''

    I asked Jim Woolsey about this. He warned that the 
intelligence community has erected formidable barriers to the 
recruitment of sources having questionable backgrounds.

    I believe, if my memory serves me right, he cautioned that 
the United States should not think that it can simply recruit 
Boy Scouts to spy on terrorists. That is an interesting 
statement.

    My question to you, and I want you to respond as 
extensively as you will, did the Commission find that these 
arbitrary policy restrictions have had a negative impact upon 
our ability to monitor the ballistic missile programs of rogue 
nations.

    Dr. Blechman. I couldn't answer that specifically. I would 
say that we did find that our human intelligence sources needed 
to be strengthened, that it was increasingly difficult to 
obtain information by technical means on the targets.

    North Korea, Iran, other countries have learned a great 
deal about how our technical systems work. They do things 
underground now or above ground when satellites are not 
present. They don't blab on the phone the way they used to. 
They go to closed circuits and so forth.

    There is no substitute for good human intelligence and we 
certainly need to strengthen those sources in any way we can.

    Mr. Rumsfeld. Mr. Chairman, those two countries, Iran and 
North Korea, are of course closed societies. We do not know a 
lot about the decisionmaking process in those countries. They 
are as secretive, and successfully so, as any countries in the 
world.

    We have prepared a letter, a side letter, that will be made 
available to the intelligence committees, and we would be happy 
to make it available to you with some observations on the 
intelligence community. While it's not a comprehensive review, 
it is a collection of the observations that we made as a result 
of our 6 months of study.

    It's a classified document at the present time, and we just 
completed it this morning. We will be submitting it to the 
appropriate chairmen of the committees, and we would be happy 
to include you.

    The only other thing I would say on submitting questions 
for us to supply answers for the record, our Commission is 
disbanded. The staff is gone. We have all gone back to our day 
jobs.

    I hope that the questions are not too many and I hope you 
will not expect ``a Commission response,'' because we are not 
meeting together any more. The responses might be Barry's, or 
Bill's, or mine as opposed to a fully coordinated one.

    The Chairman. I suggest that the staff can help guard 
against abuse of length and all that. Do the best you can. Your 
information has been startling, even though I feel sometimes we 
are in dire jeopardy.

    We have kept you here for 2 hours and 15 minutes, and it 
has been one of the most helpful 2 hours and 15 minutes that I 
have spent. I am sorry that more Senators were not here. At 
least we had three or four on our side.

    I want to thank each one of you for devoting your time to 
this and devoting your time to the now defunct Commission, and 
I hope it becomes activated in January, 3 years from now.

    I thank you for coming. Before you leave, I see fairly 
regularly as Chairman of this committee, as we end a Committee 
meeting, the best speeches I ever made are when I am driving 
home after the speech. [Laughter.]

    The Chairman. I wish many times that I could go back and 
say, wait a minute, folks, do not leave yet.

    Let me suggest that if you have anything on your mind that 
we have not covered that you think should be covered, will you 
do that now? Do you have further comment?

    Dr. Blechman. No. Thank you very much.

    The Chairman. I appreciate that. Do you?

    Mr. Rumsfeld. No, sir. I think we have covered a great 
deal.

    The Chairman. It has been a special pleasure seeing you 
again, Mr. Secretary. You are a good guy and I enjoyed our 
relationship in better political times. That is the only 
partisan statement I am going to make.

    There being no further business to come before the 
committee, we stand in recess.

    [Whereupon, at 4:20 p.m., the committee was adjourned.]

                                  <all>


</pre></body></html>
